                                      U.S. Department of Education 

                                              Office of Inspector General 


                                             501 I Street, Suite 9-200 

                                          Sacramento, California 95814 

                                    Phone (916) 930-2388 • Fax (916) 930-2390



                                                   September 30, 2003
                                                                                                           ED-OIG/A09-C0026


Cheryl Crazy Bull
President
Northwest Indian College
2522 Kwina Road
Bellingham, Washington 98226

Dear Ms. Crazy Bull:

This Final Audit Report presents the results of our audit entitled Northwest Indian College
Administration of the U.S. Department of Education, Office of Vocational and Adult Education
Grant No.V101A990026. The grant provided Federal funds for Northwest Indian College’s
(NWIC’s) administration of two projects: the Document Imaging Specialist Certificate (DISC)
Program1 and the Promising Practices Dissemination Activity (Promising Practices). The
purpose of the audit was to determine whether NWIC (1) delivered the services and products
specified in the grant proposals, and (2) claimed costs under the grant that were allowable and
supported in its financial records. Our review covered the two-year grant period from
July 1, 1999 through June 30, 2001 for the DISC Program. For Promising Practices, we covered
the period from October 1, 1999 through November 26, 2001.

We provided NWIC with a draft of this report. NWIC agreed that it did not meet the goals of the
DISC Program or complete the deliverables for Promising Practices, but disagreed with our
recommendations regarding its performance. NWIC partially agreed with our findings
concerning its financial management system and generally agreed with the related
recommendations. NWIC’s comments are summarized in the AUDIT RESULTS section of the
report and included as Attachment 3.


                                                  BACKGROUND
NWIC is a tribally controlled postsecondary education institution located on the Lummi Indian
Reservation, near Bellingham, Washington. The institution is accredited by the Northwest
Association of Schools and Colleges. NWIC received Federal funds from U.S. Department of
Education and other Federal agencies, including the U.S. Department of Agriculture,


1
 NWIC’s grant proposal called the project the Electronic Document Conversion Specialist Training
Program. Subsequent grant related documents referred to the project as the DISC Program.
           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
ED-OIG/A09-C0026                                                                              Page 2 of 17


U.S. Department of Energy, National Science Foundation, U.S. Environmental Protection
Agency, U.S. Department of Health and Human Services, and U.S. Department of Defense.

The U.S. Department of Education's Office of Vocational and Adult Education (OVAE) initially
awarded Grant No. V101A990026 to NWIC to administer the DISC Program. In September
1999, the grant was supplemented to include funds for the Promising Practices activities.

              Program          Grant Amount                  Performance Period

         DISC Program             $366,166             July 1, 1999 through June 30, 2001

                                                 October 1, 1999 through September 28, 20012
         Promising Practices      $266,075
                                                  (Includes one-year extension granted by OVAE)
         Total Grant Award        $632,241



                                        AUDIT RESULTS
We found that NWIC did not meet the terms and conditions specified in the grant proposals for
delivery of services and products for the DISC Program and Promising Practices. Also, we
found that the NWIC lacked the financial management systems to properly account for the grant
funds. Thus, we were unable to perform the level of review necessary to determine whether
NWIC claimed costs under the grant were allowable and supported in its financial records.
However, our limited review identified $8,839 of grant funds that NWIC needs to return to the
Department for costs not allowed for Promising Practices. We also identified $68,863 of costs
for Promising Practices for which NWIC needs to provide required supporting documentation or
return the funds.

In addition to addressing the unallowed and unsupported costs, we recommend that OVAE take
action to recover all or part of the $632,241 grant award due to NWIC’s material failure to
deliver the services and products. We also recommend that the Department impose appropriate
special conditions on current and future Departmental grants and take steps to ensure that NWIC
establishes financial management systems that comply with Federal requirements and submits
required audit reports.


FINDING NO. 1 – NWIC Did Not Meet the Terms and Conditions Specified in the Grant
                Proposals for Delivery of Services and Products for the DISC Program
                and Promising Practices

NWIC did not meet the terms and condition specified in the DISC Program proposal since it did
not meet the three goals for enrollments, certification, and job placements and did not report
performance data on three other goals. Also, NWIC did not complete all activities and deliver
the products listed in its Promising Practices proposal. Thus, NWIC did not meet its
responsibility to properly manage and monitor the DISC Program and Promising Practices
activities.



2
    NWIC continued to record expenditures for Promising Practices through November 2001.
ED-OIG/A09-C0026                                                                                 Page 3 of 17


NWIC Did Not Meet Three Expected Goals and
Failed to Report Data on Three Other Goals for the DISC Program

The purpose of the DISC Program was to provide basic education and vocational training in
electronic document management and document conversion services to unemployed and low-
income members of the tribal service population. As part of the DISC Program curriculum, the
trainees were to obtain work experience with Core Intelligent Regions of the 21st Century
(CIR21) Corporation3 and ultimately obtain employment with CIR21 or in the private sector.
Trainees were to be paid a stipend of $5.15 per attendance hour as an incentive to complete the
curriculum, including the on-the-job component of the program. NWIC provided instruction to
trainees under the DISC Program from January 2000 through June 2001 (18-month period).

Few Trainees Completed the DISC Curriculum or Obtained Employment. In its proposal, NWIC
stated that the DISC Program would provide training to 72 individuals over the two-year grant
period. The proposal's measurable goals, included:

        Goal #3: 85% of the trainees will successfully complete their personal education
        and training goals as identified in their Training Plans and will receive One Year
        Certificate of Completion in the DISC Program from Northwest Indian College.

        Goal #4: 80% of the trainees will be placed into jobs with the CIR21 Corporation
        within sixty days of their completion of the training program or will be pursuing
        additional training related to their training received under this program.

NWIC did not achieve the above goals. Based on unaudited information provided by NWIC, only
five trainees completed the program and one trainee was placed with a tribal commercial facility
during that period.4

                                  Trainees                           Goal             Actual
                Enrolled                                               72               39
                Obtained Certificate (85% of 72 trainees)              61                5 (a)
                Placed in Jobs (80% of 72 trainees)                    57                1
                (a) Reported number of trainees that completed all six DISC course.




3
 The Lummi Indian Business Council created CIR21 Corporation, a for-profit company, on December 1,
1998, when the Council approved the corporation’s operating agreement. The Council subsequently
dissolved the CIR21 Corporation on August 15, 2000, based on a taskforce’s findings that the corporation
needed to be held more accountable to the Council and concerns that corporate officers had not operated
in a forthright manner.
4
  NWIC offered DISC program training over an 18-month period (January 1, 2000 through June 30, 2001)
rather than 24-month period specified in the proposal. Even if the goals were adjusted to reflect expected
trainees for an 18-month period, NWIC did not meet the goals.
ED-OIG/A09-C0026                                                                                Page 4 of 17


Also, NWIC’s statistical analysis showed that less than half of the enrolled trainees completed
four or more of the six DISC courses.5

                                Number of DISC Courses Completed
          Courses        None      One       Two       Three      Four      Five       Six
          Trainees        10        5         4          4         2          9          5

We identified 12 trainees who attended for a 10 to 17 month period even though NWIC designed
the DISC program to be completed in three academic quarters (9 months). These 12 trainees
received over $115,000 in stipends, ranging from total stipends of $6,097 to $12,867. NWIC-
provided data showed that only 3 of these 12 trainees completed all six of the DISC courses.

NWIC cited the late start of the program as a reason for not meeting the goals. However, even if
the goals were adjusted to reflect the 18-month period of actual instruction, NWIC did not meet
the goals. NWIC also cited the lack of support and involvement of the Lummi Indian Business
Council and dissolution of the CIR21 Corporation as other reasons for failing to meet the goals.
Because the CIR21 Corporation did not become fully operational, it did not provide on-the-job
training for the DISC program or provide employment for certified graduates.

NWIC Did Not Report Data on Three Goals. In addition to the goals on enrollments,
certification, and job placements, the grant proposal contained goals related to basic skills
development and marketable skills.

        Goal #1: Of the 72 trainees identified, recruited, selected and enrolled for
        participation in the DISC Program, 100% will have completed a comprehensive
        assessment of basic skills levels and career aptitudes and interests by the second
        week of their enrollment in the program and will have a completed individual
        Training Plan by one month after enrollment date.

        Goal #2 (first part): 90% of the trainees referred to NWIC's basic skill
        education program will raise their education level in reading, math and/or writing
        by at least one grade level after one quarter of instruction.

        Goal #3 (first part): 85% of trainees will successfully complete their personal
        educational and training goals as identified in their Training Plan.

NWIC did not provide data on these goals in Final Performance Reports for the first and second
year of the grant. Page 35 of the DISC grant proposal states that the Project Director will
generate annual reports with information on the achievement of stated objectives. The
regulations at 34 C.F.R. § 74.51(d) state that performance reports must generally contain a
comparison of actual accomplishments with the goals established for the period, and reasons why
established goals were not met, if appropriate.


5
 The brochure for the DISC Program showed the program was scheduled for a total of 960 hours
over three academic quarters. The program consisted of three basic skill courses (140 contact hours),
six DISC-specific courses (110 contact hours, 200 lab hours, and 480 on-the-job training hours), and
one elective course (30 contact hours).
ED-OIG/A09-C0026                                                                                     Page 5 of 17


NWIC Did Not Complete All Activities or Deliver
Acceptable Products For Promising Practices

The purpose of Promising Practices was to survey, assemble, and distribute best practices in the
use of technology on projects funded by the Native American Vocational and Technical
Education Program (NAVTEP).6 NWIC’s project proposal listed the following deliverables:

          Create a survey instrument in consultation with NAVTEP personnel.
          Use the returned survey to identify promising practices at approximately eight sites in
           consultation with about eight expert consultants in technology.
          Provide 3000 manuals summarizing current practices for all NAVTEP projects and
           creating case studies (Tool-Kits) for the eight sites/projects identified as possessing
           promising practices.
          Produce a list of current contacts at each NAVTEP project who are responsible for
           technology.
          Present the project’s findings orally at an NAVTEP Annual Meeting as well as mail
           written manuals and lists to persons throughout the NAVTEP Network and other groups
           as agreed upon.

Even though OVAE staff frequently monitored the status of the project, NWIC did not complete
all activities and the few products delivered were not acceptable. In a letter dated
November 13, 2001, OVAE acknowledged receipt of mock-ups of the manuals, a contact list, a
rough cut of a video of one site, and an outline of a presentation on the project. OVAE
concluded that the submitted documents did not meet the requirements specified in the project’s
scope of work. OVAE stated that the documents contained no comprehensive discussion of the
survey findings and case studies were not prepared on the selected sites. OVAE concluded that
the quality of all products was severely compromised since a panel of experts was not used to
select the sites of promising practices and NWIC did not provide OVAE with the criteria or
standards used to select sites. NWIC did not produce the 3000 manuals specified in the grant
proposal.

In the Final Performance Report for Promising Practices, NWIC provided several reasons for
delays in completing the project, including (1) difficulties in reaching agreement with the
Department on the survey design, (2) lack of awareness until March 2000 that the Office of
Management and Budget (OMB) approval of the survey was required, (3) unavailability of
consultants originally scheduled to review completed surveys and select sites with promising
practices, (4) unavailability of original NWIC staff to complete the project, and (5) lack of
momentum in the final stages of the project. However, OVAE extended the performance period
to accommodate OMB's approval and NWIC was able to gather a group of consultants.

NWIC Did Not Meet Its Responsibility to Properly Manage and
Monitor the DISC Program and Promising Practices Activities

Federal regulations at 34 C.F.R. § 74.51(a) state “[r]ecipients are responsible for managing and
monitoring each project, program, subaward, function, or activity supported by the award.”
Because NWIC materially failed to meet the goals of the DISC Program, the Federal funds
provided under the OVAE grant were not used effectively to provide vocational training that led
6
    Native American Vocational and Technical Education Program replaced Indian Vocational Education Program.
ED-OIG/A09-C0026	                                                                         Page 6 of 17


to jobs for unemployed and low-income members of the Lummi tribal service population.
Because NWIC did not complete the Promising Practices activities and products, current
NAVTEP grantees did not benefit from information on best practices in the use of technology
and the Department was denied a resource for providing technical assistance to future NAVTEP
grantees.

When a recipient fails to meet the terms and conditions of an award, the Department may
disallow all or part of the costs of the project.
        Remedies for noncompliance. If a recipient materially fails to comply with the
        terms and conditions of an award, whether stated in a Federal statute, regulation,
        assurance, application, or notice of award, the Secretary may, in addition to
        imposing any of the special conditions outlined in § 74.14, take one or more of
        the following actions, as appropriate in the circumstances:...(2) Disallow … all or
        part of the cost of the activity or action not in compliance.
        34 C.F.R. § 74.62(a)

The special conditions outlined in 34 C.F.R. § 74.14 allow the Department to place additional
requirements on current grants from the Department and any future grants the Department
awards to NWIC when a recipient has a history of poor performance, has not conformed with the
terms and conditions of a previous award, or is not otherwise responsible. Another grantee
attribute that allows the Department to impose special award conditions is that the recipient has a
management system that does not meet the standards prescribed in 34 C.F.R. Part 74. As we
report in Finding No. 2, NWIC also met this attribute for special conditions since it lacked
financial management systems to properly account for the grant.

Recommendations

The Chief Financial Officer (in collaboration with the Assistant Secretary for Vocational and
Adult Education) should—

1.1 	   Take action as authorized under 34 C.F.R. § 74.62 (a) to recover all or part of the
        $632,241 awarded under OVAE Grant No.V101A990026.

1.2 	   Impose appropriate special conditions on current and any future Department grants to
        NWIC as authorized under 34 C.F.R. § 74.14.

NWIC Comments

NWIC agreed that it did not meet the expected goals of the DISC Program in terms of the
number of trainees, completion of programs, and placement in jobs. However, NWIC disagreed
that its failure to meet specific goal objectives constitutes a material breach of the terms and
conditions of the award. NWIC stated that neither the award document nor OMB Circulars
specify that failure to meet specific program goals was grounds for disallowance of total program
costs. NWIC acknowledged that it had not reported on the three goals pertaining to
comprehensive assessments, basic skills education, and completion of goals set forth in
individual training plans.
ED-OIG/A09-C0026                                                                         Page 7 of 17


NWIC agreed that it did not complete the deliverables specified for the Promising Practices
portion of the grant. NWIC stated that its failure to complete the deliverables was due to a
number of circumstances beyond the control of NWIC and at least partially attributed to
communications problems with the NAVTEP. NWIC also stated that, given the various
problems encountered, the time frame associated with completion of the project appears to have
prevented its successful completion of the deliverables. NWIC stated that a detailed summary on
how it intended to proceed to complete the project was provided in the Promising Practices final
report, dated December 12, 2001. However, NWIC was uncertain on whether approval was
granted to complete the project. NWIC stated that it should not be held solely responsible for the
project’s untimely implementation since NAVTEP had a critical role in the project’s design,
approval, and implementation process.

NWIC disagreed with our recommendation for the Department to impose special conditions on
current and any future grants. NWIC stated that there is no evidence to indicate that the findings
associated with the OVAE grant were widespread throughout the institution. Also, NWIC stated
that the return of grant funds would impose a serious hardship on NWIC’s financial position.
NWIC described the corrective measures taken and in progress to improve its oversight of grant
performance.

OIG Response

Our recommendations remain unchanged. The regulation at 34 C.F.R § 74.62(a) lists the
grantee’s application as a source for “terms and conditions” of a grant award. The grantee’s
material failure to meet those terms and conditions can cause the Department to disallow all or
part of the costs of the activity. The Department awarded NWIC the grant based on the DISC
Program’s objective and goals set forth in NWIC’s proposal, a part of its application. The
Department’s expansion of the grant was based on the deliverables that NWIC listed in its
Promising Practices proposal. NWIC materially failed to meet those “terms and conditions.”
The Department of Health and Human Services (HHS) Departmental Appeals Board upheld a
cost disallowance under an HHS regulation identical to 34 C.F.R § 74.62(a) based on a grantee’s
failure to accomplish the essential objective of a grant [Tuscarora Tribe of North Carolina, DAB
No. 1835; 2002 HHSDAB LEXIS 79 (July 16, 2002)].

We concluded that OVAE had given NWIC sufficient time to complete the Promising Practices
activities and deliverables. The original performance period for Promising Practices was a one-
year period. OVAE extended the performance period an additional year to accommodate the
time needed to develop and obtain OMB approval of the survey instrument. Except for creating
and mailing the survey instrument, NWIC did not fully perform the other activities or complete
the other deliverables. The grant was effectively terminated on September 28, 2001, since
OVAE did not again extend the performance period. NWIC submitted the proposed plan to
complete the deliverables over two months after the end of the performance period.

While the corrective actions outlined in NWIC's response may improve its oversight of grants,
we remain concerned about current and future grants due to the seriousness of NWIC's failure to
meet goals and provide deliverables on the OVAE grant. Also, without completed audits and the
written assurances recommended in Finding No. 2, we remain concerned that NWIC does not
have an adequate financial management system.
ED-OIG/A09-C0026                                                                         Page 8 of 17



FINDING NO. 2 – NWIC Lacked the Financial Management Systems to Properly Account
                for Grant Funds

NWIC's financial management systems are not adequate to ensure accountability of grant funds.
NWIC has experienced frequent turnovers in its financial director position. Financial records do
not provide an adequate audit trail for grant expenditures. Due to the condition of the financial
records, NWIC’s certified public accountant has been unable to complete required audits for
fiscal years 2001 and 2002. Also, NWIC was unable to provide a complete list of grant
expenditures from its accounting system to support the expenditures reported to OVAE.
In addition, we found that NWIC did not have adequate procedures for documenting staff time
expended on the grant. We also identified transactions NWIC charged to the grant that were not
allowed or where NWIC did not have required supporting documentation.

NWIC Has Experienced Continual
Turnover in Financial Directors

Three individuals have held the financial director position at NWIC since we initiated our review
of the grant. The financial director we initially met with on September 18, 2002, informed us
that he was leaving the position at the end of the week. The subsequent financial director left on
October 25, 2002. In January 2003, a new financial director was in place. According to NWIC
staff, the college has had a total of six financial directors since April 2000.

NWIC’s Financial Records Do Not
Provide An Adequate Audit Trail

Around the first of June 2000, NWIC experienced a failure in its ability to retrieve data from its
financial accounting database. NWIC eventually re-established its financial accounting database
using journal entries to record grant expenditures incurred as of December 31, 2000, and in
January 2001, began recording financial transaction in the database. NWIC was unable to
provide financial details to support the journal entries used to re-establish the database. Due to
the condition of the financial records, the certified public accountant (CPA) firm hired by NWIC
has been unable to complete required audits. Also, we could not reconcile grant related financial
reports to NWIC’s financial records and had difficulty identifying detailed transactions charged
to the grant.

CPA Firm Unable to Complete Required OMB Circular A-133 Audits. NWIC’s CPA firm has
been unable to complete the audits required for fiscal years ended June 30, 2001 and 2002.
NWIC requested that the 2001 audit be delayed due to the database problems, accounting system
changes, and personnel turnover. In October 2002, the CPA firm began an audit covering both
years, but later suspended the audit to give NWIC additional time to get its records in auditable
condition. The CPA firm was scheduled to restart the audits in June 2003.

The regulations at 34 C.F.R. § 74.26 (a) state that grant recipients are subject to the audit
requirements contained in OMB Circular A-133. The Circular required NWIC to submit annual
audits conducted in accordance with its provisions. The Circular provides for the following
sanctions in cases of continued inability to provide the required audit: withholding or disallowing
ED-OIG/A09-C0026                                                                          Page 9 of 17


indirect costs, terminating the Federal award, and withholding a percentage of Federal awards or
suspending Federal awards until required audit is completed.

Grant Financial Reports Submitted to OVAE Could Not Be Reconciled to Financial Records.
NWIC's financial data submitted with its performance reports could not be reconciled with
expenditures recorded in its current financial database or other available financial reports.

                                                          DISC         Promising
                                                         Program       Practices
             Final Financial Data Submitted to OVAE      $310,414        246,353

             NWIC’s Current Financial Database            404,140        258,148

The standards for financial management systems are specified in 34 C.F.R. § 74.21. The
regulations at 34 C.F.R 74.21 (b)(1) state the recipient’s financial management systems shall
provide for accurate, current, and complete disclosure of the financial results of each Federally-
sponsored project.

Difficulty Identifying Detailed Transactions. Extensive OIG audit effort was needed to identify
detailed transactions for amounts shown in NWIC’s current financial database for the grant.
From this effort, we were able to identify detailed transactions totaling in excess of the amounts
shown in NWIC’s current financial database for the DISC Program. For Promising Practices, the
total detailed transactions we identified were less than the amount shown in NWIC’s current
financial database. The regulations at 34 C.F.R. § 74.21(b)(2) require that NWIC’s financial
management systems provide “[r]ecords that identify adequately the source and application of
funds for federally sponsored activities.” Attachment 2 identifies the amounts that we concluded
were unsupported costs for Promising Practices because we could not identify sufficient detailed
transactions.

NWIC Did Not Have a Payroll Distribution
Method in Place for Personnel Costs

NWIC did not have a payroll distribution system in place to support the allocation of personnel
costs to the grant. OMB Circular A-21 – Cost Principles for Educational Institutions establishes
the principles for determining costs applicable to grants with educational institutions. Paragraph
J.8.b. (1) (b) of the Circular states that the apportionment of employees’ salaries and wages
which are chargeable to more than one sponsored agreement or other objective will be
accomplished by methods which will produce an equitable distribution of charges for the
employee’s activities. The Circular specifies the criteria for acceptable methods and provides
examples of them. We identified three NWIC employees whose salaries were charged to
Promising Practices and other activities. Attachment 2 shows the unsupported salaries and
related fringe benefits that we identified as unsupported costs because NWIC lacked required
support for the allocation of the salaries.
ED-OIG/A09-C0026	                                                                             Page 10 of 17


NWIC Charged Costs Not Allowed For
The Grant and Did Not Provide Supporting
Documentation For Some Transactions

From our limited review7 of the identified detailed transactions, we concluded that NWIC’s
current financial database included a transaction for $660 that was not necessary for the DISC
Program and transactions for $14,817 that were not necessary for Promising Practices. OMB
Circular A-21, Paragraph C.2 lists “reasonable” as a factor affecting allowability of costs
charged to grants by educational institutions. Paragraph C.3 lists the following major
consideration for determining the reasonableness of costs – “whether or not the cost is of a type
generally recognized as necessary for the operation of the institution or the performance of the
sponsored agreement.”

Also, we concluded that NWIC lacked the required documentation for identified transactions for
Promising Practices. The regulations at 34 C.F.R. § 74.21 (b)(7) state NWIC shall provide
“accounting records... that are supported by source documentation.” Given the limited nature of
our review, we are unable to express an opinion on whether the detailed transactions identified
for other costs, for which we did not review invoices or other supporting documentation, were
allowable under the grant.

Attachment 1 provides details on the cost not allowed for the DISC Program. Since the amounts
recorded in NWIC’s financial database were significantly higher than the portion of the grant
awarded for the DISC Program, we have not recommended that the $660 plus $132 in applicable
indirect costs be returned to the Department.

Attachment 2 provides details on the unallowed costs and transactions that lacked required
documentation for Promising Practices. We limited the recommended funds to be returned for
unallowable costs to $8,839, which is the amount of funds drawn in excess of the recorded costs
after reduction for the $14,817 of unallowable costs and inclusion of allowed indirect costs.

Recommendations

The Chief Financial Officer (in collaboration with the Assistant Secretary for Vocational and
Adult Education), in addition to imposing appropriate special conditions on future grants to
NWIC, should require NWIC to—

2.1 	   Instruct its certified public accountant to complete the required OMB Circular A-133
        audits for fiscal years ended June 30, 2001 and 2002, and provide copies of the issued
        audit reports to the Department. If the audit reports are not received promptly, the
        Department should consider imposing the sanctions provided in the Circular.

2.2 	   Establish a financial management system that complies with the requirements of
        34 C.F.R. 74.21 and OMB Circular A-21, and provide the Department with written
        assurances from its certified public accountant that the system has been fully
        implemented.


7
 The Objectives, Scope, and Methodology section of this report describes the limited nature of our
review.
ED-OIG/A09-C0026	                                                                        Page 11 of 17


2.3 	   Return $8,839 to the Department for disallowed costs for Promising Practices.

2.4 	   Provide supporting documentation for $57,386 of Promising Practices’ costs for which
        we could not identify detailed transactions, NWIC lacked required salary distribution
        documentation, or other required supporting documents were not provided. If adequate
        supporting documentation is not provided, NWIC should be required to return $68,863
        ($57,386 plus $11,477 of applicable indirect costs). Attachment 2 provides details on the
        unsupported costs that comprise this amount.

The amounts identified in Recommendations 2.3 and 2.4 are also included in the amount for
Promising Practices that is subject for return to the Department under Recommendation 1.1.

NWIC Comments

NWIC partially concurred with the findings and recommendations. NWIC agreed that there was
instability in the financial director position for several months and unallowable costs should be
returned to the Department after NWIC's review of the specific transactions. NWIC agreed with
the recommendations to complete OMB Circular A-133 audits and provide the Department with
written assurances that an adequate financial management system has been implemented.

NWIC disagreed with the OIG’s conclusion that financial records made available to the auditors
did not provide adequate documentation and stated that it had not received a list of the specific
unsupported transactions referred to in the report. NWIC stated that, according to its review of
the guidelines in OMB Circular A-21, the College had met the requirements for documentation
related to personnel costs. NWIC stated that it had used time cards to document time at work
and the employee’s contract or other personnel documents list the appropriate institutional or
grant line items to which payroll was to be charged. Nevertheless, NWIC stated it has
implemented a time and effort report to document an employee’s time on any individual grant
and will review its policies and procedures to ensure compliance with OMB Circular A-21
requirements.

OIG Response

In a letter dated August 20, 2003, we provided NWIC with a detailed list of the transactions cited
in the report as unsupported and questioned costs. The list identifies the journal entries for
which NWIC had not provided detailed transactions and the transactions for which NWIC has
not identified the payee or provided source documents. NWIC has yet to provide the needed
information or documents for the transactions.

We have not changed our conclusion regarding NWIC’s documentation of personnel costs.
Paragraph J.8.b.(2)(b) lists one of the criteria for an acceptable method of documenting the
allocation of personnel costs for employees whose salaries and wages are chargeable to more
than one grant or other activities. The paragraph states “[t]he method must recognize the
principle of after-the-fact confirmation or determination so that costs distributed represent actual
costs, unless a mutually satisfactory alternative agreement is reached.” The procedures described
in NWIC’s response to the draft report do not provide an after-the-fact confirmation of the
allocation.
ED-OIG/A09-C0026                                                                          Page 12 of 17



                  OBJECTIVES, SCOPE, AND METHODOLOGY 


Our audit objectives were to determine whether NWIC (1) delivered the services and products
specified in the grant proposals, and (2) claimed costs under the grant that were allowable and
supported in its financial records. Our review covered the two-year grant period from
July 1, 1999 through June 30, 2001 for the DISC Program. For Promising Practices, we covered
the period from October 1, 1999 through November 26, 2001.

To accomplish these objectives, we reviewed the DISC Program and Promising Practices grant
applications, budget narratives, performance reports, and correspondence between NWIC and
OVAE. We also reviewed NWIC’s OMB Circular A-133 audit report for the year ended June
30, 2000, which was prepared by its certified public accountant. We interviewed NWIC
accounting staff responsible for the financial administration of grants and contracts, the
instructor whose contracted services were funded by the DISC Program, and other NWIC
officials. We also held discussions with OVAE grant administration staff responsible for
providing oversight of the grant.

To achieve our audit objectives, we relied on a transaction report generated from NWIC’s
current financial database on October 1, 2002, which showed costs charged to the grant. We also
used other computer-processed reports provided by NWIC. Our review of these reports
identified inconsistencies and a lack of supporting documentation, which lead us to doubt the
completeness and accuracy of the reports and to limit the extent of our transaction testing.
However, when these reports are viewed in context with other available evidence, we believe the
opinions, conclusions, and recommendations in this report are valid.

To determine if NWIC’s financial records supported reported expenditures, we attempted to
reconcile final financial reports submitted to OVAE to amounts shown in NWIC’s current
financial database. Since NWIC’s financial database did not provide an adequate audit trail for
all amounts, we expended extensive OIG audit effort to identify detailed transactions for
amounts shown for the grant in NWIC’s current financial database. Due to the significant effort
required to identify transactions and obtain supporting documentation, we limited our review of
the identified detailed transactions to an analysis of the transaction dates and descriptions in the
financial database and other available financial reports. Except for the review of invoices
provided for the consultant payments and equipment purchases, we did not attempt to review
subsidiary records, invoices, cancelled checks, or other supporting documentation.

We performed our fieldwork at the NWIC campus on the Lummi Indian Reservation during
September 18-27, October 15-18, and November 4-8, 2002. We held exit conferences with
NWIC officials on November 8, 2002 and June 5, 2003. We performed our audit in accordance
with generally accepted government auditing standards appropriate to the scope of the review
described.
ED-OIGIA09-C0026                                                                       Page 13 of17



                 STATEMENT ON MANAGEMENT CONTROLS 

Our assessment ofNWIC's management control structure was limited to those areas of control
weakness identified while conducting substantive tests of grant expenditures. The identified
weaknesses are listed in Finding No.2. Based on the identified control weaknesses, we
concluded that NWIC lacked the financial management systems necessary to properly account
for grant funds.


                            ADMINISTRATIVE MATTERS
Statements that managerial practices need improvement, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution ofthis audit, you should send them directly to the following Departmental official,
who will consider them before taking final action on this audit-

                              Jack Martin
                              Chief Financial Officer
                              Office of the Chief Financial Officer
                              U.S. Department of Education
                              Federal Building No.6, MS 4300
                              400 Maryland Avenue, SW
                              Washington, DC 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued to the
Department's grantees and contractors are made available, if requested, to members of the press
and general public to the extent information contained therein is not subject to exemptions under
the Act.


                                             Sincerely,


                                             ~~
                                             Gloria Pilotti
                                             Regional Inspector General for Audit
  ED-OIG/A09-C0026	                                                                        Page 14 of 17


                                                                                           Attachment 1

                                     DISC PROGRAM
                Budget, Expenditures, and Questioned and Unsupported Costs
                                            NWIC’s                       Unsupported Costs
                              Approved                   Questioned
                                            Financial                   Detailed Transactions
         Cost Category         Budget                      Costs                                 Notes
                                            Database                       Not Identified

 Salaries                       $123,830       $12,031                               $12,031    Note A
 Fringe Benefits                  29,720           657                                   657    Note A
 Contracted Services                           127,115
 Travel                             3,536        1,447                                  1,379   Note A
 Supplies & Equipment             62,000        68,230
 Space Costs                      11,760        18,884           $660                   2,759   Note B
 Total Direct Costs
                                 230,846       228,364           $660                $16,826
 (excluding stipends)
 Applicable Indirect Costs                                                                      Note C
  Budgeted Rate 19.4%             44,784        45,673            132                   3,365
  Negotiated Rate 20.0%
 Stipends                         90,536       147,434                                          Note D
 Total                          $366,166      $421,471           $792                $20,191
 Less Questioned Costs                             792
 Total After Adjustment
                                              $420,679
 for Questioned Costs

Note A:	       Unsupported Salaries, Fringe Benefit, and Travel Costs. We were unable to identify
               detailed transactions for these amounts shown in NWIC’s financial database.

Note B:	       Questioned Space Costs. We concluded that the $660 was not an allowed cost of the
               DISC Program based on the transaction description “Torchdown of Roof for Bookstore
               Addition.”

               Unsupported Space Costs. We were unable to identify detailed transactions from
               documents provided for $2,759 of costs shown in NWIC’s financial database.

Note C: 	      The indirect costs shown in this schedule for NWIC’s financial database, questioned costs,
               and unsupported costs were calculated using the final negotiated rate of 20 percent. The
               actual amount of indirect costs recorded in NWIC’s financial database was $28,342.

Note D: 	      The stipends recorded in NWIC’s financial database were significantly higher than the
               budgeted amount. NWIC reported in its Final Performance Report for Year 2 that
               institutional funds were used to pay students additional stipends.
         ED-OIG/A09-C0026	                                                                      Page 15 of 17


                                                                                                Attachment 2

                                    PROMISING PRACTICES
                    Budget, Expenditures, and Questioned and Unsupported Costs
                                                                            Unsupported Costs
                                            NWIC’s                       Detailed       Lacked
                                                         Questioned
                               Budget       Financial                  Transactions    Required
         Cost Category                                     Costs                                         Notes
                                            Database                       Not      Documentation
                                                                        Identified   for Identified
                                                                                      Transaction
 Salaries                       $115,513      $152,440                                        $36,886    Note A
 Fringe Benefits                  28,880        46,988        $5,029                           10,324    Note A
 Contracted Services              16,200        10,247         2,000           $600             2,000    Note B
 Travel                           27,600         1,444
 Supplies & Other                 34,650         7,180           143           4,339                     Note C
 Equipment                                      10,882         7,645           3,237                     Note D
 Total Direct Costs             $222,843      $229,181        14,817         $8,176           $49,210
                                                                                                         Note E
 Applicable Indirect Costs        43,232        45,836         2,963           1,635            9,842

 Total                          $266,075      $275,017       $17,780         $9,811           $59,052
 Less Questioned Costs                          17,780                 Total Unsupported Direct Costs   $57,386
 Total After Adjustment                                                Applicable Indirect Costs         11,477
                                              $257,237
 for Questioned Costs                                                  Total Unsupported Costs          $68,863

Note A:	 Unsupported Salary and Fringe Benefit Costs. We were unable to identify the payees for four
         payroll summary entries totaling $6,749. An additional $30,137 of salaries was not supported
         because NWIC did not have the required support for the salary distribution of personnel who
         worked on more than one project or activity. The fringe benefits allocable to the unsupported
         salary costs were $2,015 and $8,309, respectively.
             Questioned Fringe Benefit Costs: We concluded that the NWIC financial database included
             $5,029 of fringe benefit costs that were not allocable to Promising Practices. The identified salary
             transactions include three adjusting entries that reduced salaries previously charged to Promising
             Practices. We found that a corresponding fringe benefit adjustment for one salary adjustment
             used a fringe benefit rate that was much lower than the actual average rate and no fringe benefits
             were associated with the other adjusting entries.

Note B:	     Questioned Contracted Services: NWIC provided documentation stating that the invoice for
             $2,000 of consultant services was mistakenly charged to Promising Practices. The document
             showed the journal entry needed to remove the charge, but no such journal entry appeared in the
             transactions listing provided from NWIC’s financial database.
             Unsupported Contracted Services: We were unable to identify detailed transactions for $600 of
             consultant services. Also, NWIC was unable to provide an invoice or other supporting
             documentation for a $2,000 payment to a consultant.
      ED-OIG/A09-C0026	                                                                    Page 16 of 17


                                                                                           Attachment 2
                                                                                            (Continued)

Note C: 	 Questioned Supply Costs: We concluded that $143 was not an allowed cost for Promising
          Practices based on the transaction description “DISC Program Instruction Books.”

           Unsupported Supplies & Other Costs: We were unable to identify detailed transactions for
           $4,339 of supplies and other costs shown in NWIC’s financial database.

Note D: 	 Questioned Equipment Costs: We concluded that two purchases were not allowed costs for
          Promising Practices because the approved budget did not include a budget line for equipment
          purchases and the items were not one of the listed items under the supplies and other costs
          budget line. The purchases were $99 for a mini F-Tripod and $7,546 for a wireless Internet
          system for WIC’s Nesqually site.

           Unsupported Equipment Costs: We were unable to identify detailed transactions for $3,237 of
           equipment costs shown in NWIC’s financial database.

Note E: 	 The indirect costs shown in this schedule for NWIC’s financial database, questioned costs, and
          unsupported costs were calculated using the final negotiated rate of 20 percent. The actual
          amount of indirect costs recorded in NWIC’s financial database was $28,967.
ED-OIG/A09-C0026                                                                 Page 17 of 17




                                      Attachment 3 


                    NWIC’s Comments on the Draft Report 




                                         OIG NOTE

            The attachments referred to in NWIC’s comments are available on request.
                NORTHWEST INDli\N COLLEGE 

                                   2522 Kwina Road, Bellingham, Washington 98226-9217
                                         (360) 676-2772      Fax (360) 738-0l36




July 30, 2003

Gloria Pilotti
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
501 I Street, Suite 9-200
Sacramento, California 95814

Reference: ED-OIGIA09-C0026

Dear Ms. Pilotti:

        This letter responds to the findings and recommendations slet forth in your letter
of July 3, 2003 pertaining to Northwest Indian College Administration of the U.S.
Department of Education, Office of Vocational and Adult Education Grant No.
V101A990026. This grant provided Federal funds for Northwest Indian College's
(NWIC's) administration of two projects: The Document Imaging Specialist Certificate
(DISC) Program and the Promising Practices Dissemination Activity (Promising
Practices).

                                    BACKGROUND

        The review by your office of the DISC Program was for a two-year grant period
from July 1, 1999 through June 30, 2001. For Promising Practices" the review covered
the period from October 1, 1999 through November 26,2001.

       There was a chain of events that led to the financial and administrative situation
that NWIC finds itself in today in regards to these grants. Those events included the
following:

    1. Turnover in administrative and fiscal office personnel
    2. Transfer of business office financial system from one software package to another
    3. Turnover in the technology department

       Until June 9, 2001, Bob Lorence served as President of Northwest Indian College.
Upon his departure, Tommy Lewis served as President from January 1,2001 until
January 31, 2002. During the period in question, Michael Crow served as Vice President
of Administrative Services and Project Director for the DISC grant. He also left the
College in January 2002. Joe Rich who served as Vice President of Instruction and who



                                                                                             1
was involved in implementation of the grant also left the College in January 2002.
Following Tommy Lewis' departure, Barbara Roberts former Dean of Humanities served
as Interim President until Cheryl Crazy Bull was hired beginning October 1, 2002. The
period of the review is important to the discussion regarding the findings and
recommendations. The individuals currently responsible for remedying findings and
recommendations were either not employed by the College at that time or held jobs not
specifically associated with the DISC Program or Promising Practices.

        In mid-2001, there was a period of political turmoil at the College. This turmoil
led to the departure of three key administrators, the President and the Vice Presidents of
Instruction and Administration in January 2002. It also contributed to the departure of
the Finance Director and to turnover in that and other Business Office positions over a
several month period.

        In 1999, after extensive research, NWIC purchased a new accounting software
package (which includes other components such as student records), Teams Elite.
Jenzabar developed teams Elite specifically for educational institutions. NWIC
developed an implementation plan for the new software including procedures for
conversion of the data from the old accounting system to Teams Elite. The conversion
was completed and the system was live January 1,2000. After the conversion was
complete, NWIC began experiencing problems with Team Elite. The system crashed
several times and accounting staff were required to spend significant amounts of time
reentering transactions as well as trying to understand why the system continued to crash.
In March 2000 after several crashes NWIC abandoned Teams Elite: and used Excel and
Business Works on an interim basis until the issues with Teams Elilte could be corrected.

        During the time period associated with the change in accounting systems, the
technology department at NWIC also experienced changes in personnel. Persons familiar
with the transition left the institution leaving a void in support for the change. For
several months, NWI C also found itself in the position of having insufficient financial
resources to support the change including upgrades in the software.

                                INSTITUTIONAL RESPONSE

        In response to these critical management and administrativ(: issues, the Board of
Trustees of the College initiated a national search for an experienc(:d President. Ms.
Crazy Bull began work on October 1,2002 with a directive to rem(:dy the College's
financial management issues along with other initiatives. She brings over 20 years of
experience to the position including considerable experience with financial management
and corrective actions pertaining to financial matters. Her most rec:ent position as Chief
Educational Officer at a tribal school in South Dakota included leadership in correcting
school audits that included material findings. At the time of her departure, the school had
received its second clean audit. Her resume is attached at Appendix A.

       NWIC also hired a Vice President ofInstruction, Dr. Rissa Wabaunsee who is
experienced with grants management. Her resume is attached at Appendix B. Dr.



                                                                                             2
Wabaunsee is responsible for oversight ofNWIC's academic program grants including
ensuring accomplishment of stated goals.

        NWIC fully utilizes the Teams Elite software including Infomaker for its financial
management. The College was successful in obtaining a Title III -- Strengthening
Developing Institutions grant that includes a significant commitme:nt to improving
technology resources and services. Funds are available for training, software including
upgrades, and equipment. NWIC also employs a full-time database specialist to manage
the college-wide database including the Business Office.

                                        AUDIT RESULTS

FINDING NO.1 - NWIC did not meet the terms and conditions specified in the
grant proposals for delivery of services and products for the DISC Program and
Promising Practices.

NWIC concurs that it did not meet the expected goals of the DISC Program in terms of
number of trainees, completion of program and placement injobs. The current
administrative team has been unable to determine the reasons for the number of projected
enrollees except that the Lummi Indian Business Council (LIB C) at that time expected to
create employment through a tribal corporation, CIR21 Corporation, with high projected
employment. CIR21 was dissolved by LIBC in August 2000 based on matters beyond
the control ofNorthwest Indian College. Despite this failure to meet the numbers in
terms of completion, the College did offer the program of study to students during the
time period in question.

As the Corporation was an integral part of the overall plan for the DISC program, its
closure had a severe impact on the initial goals as originally set forth. This variable,
combined with the fact that the participants' level of effort cannot be completely
controlled by the College explains why the expected goals were not met.

We disagree that NWIC's failure to meet specific goal objectives constitute a material
breach of the terms and conditions of the award. With minor exceptions all monies for
the DISC program were expensed appropriately toward the achievement of stated goals.
The award document does not state, nor do the Circulars, that failure to meet specific
program goals is grounds for disallowance of total program costs.

NWIC agrees that it did not report on data onthree goals pertaining to comprehensive
assessment, baskskills education and completion of goals set forth in individual training
plans. The College does collect student data including assessments and basic skills
information but reconstructing such data at this time would be prohibitive in terms of
resources. However, despite the lack of reporting, student data was clearly used to place
students in appropriate courses and course sections throughout the duration of the DISC
program.




                                                                                           3
CORRECTIVE ACTION

NWIC has taken the following corrective measures:

   1. 	 Hired a well-qualified Vice President ofInstruction, Dr. Rissa Wabaunsee, to
        oversee implementation of academic programs. As noted earlier, her resume is
        attached at Appendix B. Dr. Wabaunsee is experienced in grants management.

   2. 	 Completing development of an institutional assessment process, a component of
        which is the review of academic programs and their accomplishment.

   3. 	 Assigned oversight of grant programs to the appropriate viee-president who works
        with the project director to ensure compliance with grant requirements and
        accomplishment of goals.

   4. 	 Implemented an internal reporting system to track narrative: and financial reports
        for all grant programs. A copy of a portion of this reporting system is provided at
        Appendix C. Our Grants Accountant, Richard Jenkins, tracks the reporting
        system.

NWIC did not complete all activities or deliver acceptable products for Promising
Practices.

NWIC agrees that due to a number of circumstances beyond the control of the College
and at least partially attributable to communications problems with the Native American
Vocational and Technical Education Program (NAVTEP) that Promising Practices did
not complete the deliverables as required by the Grant. The various reasons for non­
completion have been detailed by NWIC in reports and correspondence previously
submitted to NAVTEP. As indicated in page 5 of your letter of July 3, the time frame
associated with completion of the project given the various problems that NWIC outlined
appear have to prevented its successful completion. In the Promising Practice final report
dated December 12,2001, Michael Crow, former Vice President of Administration
provides a detailed summary of how NWIC intended to proceed to complete the project.
NWIC is unclear as to whether approval was granted to complete the project. In any
case, individuals associated with the project continued to work on the project for several
months. None of those individuals remain at the College.

Promising Practices was time-driven, and the great delay in the development and
approval of the survey instrument and changes in expectations from the granting agency
created almost insurmountable delays. Since NAVTEP had a critical role in the design,
approval and implementation process, it is unconscionable that N\\TIC would be held
solely responsible for the project's untimely implementation.

NWIC did not meet its responsibility to properly manage and monitor the DISC
Program and Promising Practices Activities.              __




                                                                                          4
Current NWIC administrative team members are in a difficult position because while we
concur that circumstances prevented NWIC from meeting all the goals and requirements
of the grants, human and other resources were devoted to the activities of the grants
resulting in a range of accomplishments. We did have students in the DISC Program
with faculty and staff assigned or hired to meet their needs. We did conduct a number of
activities related to completion of the Promising Practices goals. That goals were not
fully met doesn't mean that resources were improperly spent. H • •

NWIC was and is successful in the achievement of its objectives with nearly all grant
programs. This achievement is what led NAVTEP to attach the Promising Practices
grant to our DISC grant in the first place.

In light of the concerns addressed in the OIG letter, however, we are taking steps to
ensure that goals of all of our programs including those of grants are met. Our primary
strategy is to use a well-designed strategic plan and assessment process. We have spent
the last 9 months designing both with adoption of the strategic plan expected in October
and of the assessment plan soon after.

The steps outlined throughout this letter are more than adequate to prevent NWIC from
being placed under special award conditions. Our current management system is
designed to prevent such situations from ever occurring again.

CORRECTIVE ACTION

       NWIC has hired qualified staff to provide special oversight of grant programs
including reviewing achievement of goals as well as budget and report monitoring.
Through the organizational structure, principal investigators and project directors report
monthly progress on achieving goals either through written reports or in formal meetings
of department and program teams.

Response to Recommendations

1.1 Take action as authorized under 34 C.F.R. 74.62 (a) to recover all or part of the
    $632,241 awarded under OVAE Grant No. V101A99026.

    NWIC strongly disagrees with the imposition of such a penalty. There is no evidence
    to indicate that the situation associated with this grant is widespread throughout the
    institution. Reviews by the President and Administrative Team of other institutional
    grant programs indicate successful achievement including many instances when
    achievements exceeded goals.

    It is clear that this grant situation was exceptional. For the DISC Program the
    association with LlBC's development ofa tribal business proved detrimental to the
    success of the project. NWIC to its credit continued to deliver services despite the
    potential loss of tribal employment opportunities. Promising Practices had problems
    associated with its implementation from the very beginning according to the written



                                                                                             5
   evidence. These problems included changes required by NAVTEP and imposition of
   (appropriate) federal requirements for research on human subj(:cts.

   Such a penalty would also impose a serious hardship on NWIC's financial position.
   Like all tribal colleges and many other institutions of higher ed.ucation, NWIC has to
   closely monitor its financial position in order to ensure ongoing delivery of core
   educational and student support services. NWIC is not in the financial position to
   repay funds of this magnitude.

1.2 Impose appropriate special conditions on current and any future department grants to
    NWIC as authorized under 34 C.F.R. 74.14.

   NWIC strongly disagrees with this recommendation. The College has taken
   extraordinary measures in the last several months to correct prior administrative and
   financial problems. Literally hundreds of hours of staff and considerable financial
   resources have been devoted to completion of the audits, development and use of a
   viable budget, training, and software upgrades.

   NWIC has invested in well-qualified staff and the Board of Tmstees and President
   have worked conscientiously to retain these qualified persons. Department heads and
   grants managers are persistent and diligent in their monitoring of their budgets as well
   as any financial and narrative reports.

   Significant improvements in our reporting and monitoring system, completion of our
   financial audits, adoption and implementation of Business Offi·ce Policies and
   Procedures and commitment of institutional resources are all evidence of our
   corrective actions in this area.

Finding NO. 2- NWIC lacked the financial management systems to properly account
for grant funds.

        Based on the time period associated with this review, NWIC partially concurs
with this finding. However, we strongly disagree that such systems are not in place at this
time.

         As documented above, NWIC experienced substantial problems with the new
accounting software implemented in January 2000. NWIC also experienced high
turnover in the Business office particularly in the Finance Director position. Lack of
institutional memory in the Business Office and the use of three software packages
contributed to the problems with documentation associated with this review.

CORRECTIVE ACTION

       Staffing pattern and qualifications




                                                                                            6
   NWIC has hired a qualified Finance Director to oversee the Business Office.
   Barbara Barr brings over 23 of experience in finance including 12 in higher
   education. Her leadership has resulted in greatly improved processes and
   adherence to policies and guidelines. Her resume is at Appendix D.
   NWIC has also hired a well-qualified grants accountant who has over 20 years of
   accounting experience with 12 of those years spent in educational settings. His
   resume is attached at Appendix E.

2. Hiring of Accounting Firm

   Because NWIC was behind in its completion of its audits, the existing staff found
   themselves trying to catch up while keeping up with daily requirements. This
   exacerbated an already difficult situation. NWIC advertised for an accounting
   firm to come in to prepare NWIC for completion of its audits working closely
   with our auditing firm. NWIC selected Ribail, Stauffer & Associates, and PLLC,
   to provide us with technical support to prepare for the audits and to remedy
   problems with our financial management system. As a result of their support and
   with the cooperation of our auditing firm, NWIC expects to complete its audits by
   mid-September. Copies ofNWIC's contracts with Ribail, Stauffer & Associates
   is provided at Appendix F.

3. Monitoring System

   Through the due diligence of our business office staff and a.dministrative team,
   NWIC can provide accurate accountability and reporting for our grant and
   institutional funds. In March and April, all grants managers and program
   directors were directed to meet with business office staff to review institutional
   and grant budgets and to prepare and implement any necessary modifications to
   bring the grants current.                               ____

   NWIC has implemented a clear separation of duties with purchasing initiated by
   program staff, purchase order issued by the purchasing department and payment
   through accounts payable. The Finance Director, Ms. Barr, carefully reviews all
   payments from the College's accounts to ensure proper coding and
   documentation.

   Infomaker is the software package that creates access to the College's budgets.
   NWIC provides training to grants managers and program heads on the use of
   Infomaker to monitor their budgets. In addition, a monthly budget report is
   provided the administrative team and Board of Trustees of the College. The
   administrative team reviews the budget to ensure its reliability and to recommend
   any changes that might need to be made. A copy of the institutional budget for
   the fiscal year ending June 30, 2003 is provided at Appendix G. The budget
   report does not reflect end of the year adjustments.    ,. Ij_ _




                                                                                        7
   4, 	 The Finance Director has also completed a draft of an updated policies and
        procedures manual that will be approved by the Board of Trustees. The document
        closely aligns business office policies and procedures with federal regulations in
        addition to standard accounting procedures. A copy of the draft is provided at
        Appendix H.

NWIC has experienced continual turnover in financial directolrs.

NWIC concurs that there was instability in the financial directors position for several
months including the time period associated with this review. This turnover occurred for
reasons beyond the control or knowledge of the current administrative team although it
appears to have been associated with frustration with the software system and with the
hiring of persons who did not have the appropriate skills for the job. As noted earlier, the
College hired and trained a full-time database specialist to oversee technology aspects
associated with use of the software and hardware in the Business Office as well as in
other areas such as student records. To remedy the skills-related issue, NWIC sought and
hired well-qualified accountants with college or educational business office experience.

NWIC's financial records do not provide an adequate audit trnil.

NWIC disagrees that the financial records that were available to the OIG auditor did not
provide adequate documentation and have contributed to problems associated with
completion of the audit. We are unable to determine from the letter provided by OIG
specifically what transactions are being referred to pertaining to th,~se grants. Business
Office personnel have diligently reviewed the files associated with these grants and
cannot find a listing of the 'specific transactions that are referred to in the OIG letter.

CORRECTIVE ACTION

       NWIC hired an accounting firm, Ribail, Stauffer & Associates, PLLC, to remedy
       accounting deficiencies that were preventing our auditing firm, Moss-Adams from
       completing the 2001 and 2002 audits. Due the diligence of our staff and of our
       accounting firm, we expect our 2001 audit to completed in August 2003 with the
       2002 audit to follow shortly thereafter. Thereafter, NWIC will be on track with
       completion of its audits.

    2. 	 As noted earlier NWIC has implemented changes in procedure to ensure adequate
         financial documentation and management.

NWIC did not have a payroll distribution method in place for personnel costs.

NWIC utilized time cards to document time at work during the time period in question.
The employee's contract or other personnel documents list the appropriate institutional or
grant line items to which payroll was to be charged. According to the guidelines in
Circular No. A-21, NWIC is meeting the requirements for documentation. See Appendix
I for the pertinent pages to this discussion.



                                                                                              8
At the time of this review, NWIC was following its normal procedures in documentation
of employee time.



CORRECTIVE ACTION

NWIC has implemented a system wide use of a time and effort report to document an
employee's time on any individual grant. Based on a recent review of the requirements
of Circular No. A-21, NWIC is reviewing the time and effort requirements in order to
ensure that our policies and practices meet the requirements.

NWIC did not charge the full amount of allowed indirect costs to the grant.

NWIC agrees with this and has ensured that an appropriate system is in place in the
grants accounting office to track and collect indirect costs.

NWIC charged costs not allowed for the grant and did not provide supporting
documentation for some transactions.

NWIC agrees that unallowable costs of$8,839 should be returned based on the OIG
review. This agreement is based on the excess drawdown of grant funds at the time of
the grant periods.

Response to Recommendations

   2.1 	 Instruct its certified public accountant to complete the required OMB Circular A­
         133 audits for fiscal years ended June 30, 2001 and 2002, and provide copies of
         the issued audit reports to the Department. If the audit reports are not received
         promptly, the Department should consider imposing the sanctions provided in the
         Circular.

       As stated earlier, NWIC is working closing with an accounting firm and its
       auditors to complete the audits as soon as possible. We currently have a deadline
       of early to mid September for completion of both audits.

   2.2 Establish a financial management system that complies with the requirements of
       34 c.P.R. 74.21 and OMB Circular A-21, and provide the Department with
       written assurances from its certified public accountant that the system has been
       implemented.

       Upon completion of the 2001 and 2002 audits, NWIC's certified public
       accountant will provide the requested written assurance. f.

   2.3 Return $8,839 to the Department for disallowed costs for Promising Practices.



                                                                                           9
       Upon completion of the review of specific transaction, NWIC agrees to negotiate
       settlement of any overpayment.

   2.4 Provide supporting documentation for $57,386 of Promising Practices' costs for
       which we could not identify detailed transactions, NWIC lacked required salary
       distribution documentation, or other required supporting documents were not
       provide. If adequate supporting documentation is not provided, NWIC should be
       required to return $68, 863 ($57,386 plus $11,477 of applicable indirect costs).

       Because the July 3, 2003 letter from the OIG does not specify which transactions
       are in question, NWIC cannot prove the requested supporting documentation.
       Business Office personnel have reviewed available documemts from the audit visit
       but cannot determine with any level of specificity which tr,msactions are referred
       to particularly in the case of salary and fringe benefits.


STATEMENT ON MANAGEMENT CONTROLS

        It is the position.ofNWIC that management controls are in place to properly
manage institutional and grant funds and to ensure implementation of programs and
grants. Weaknesses identified in association with this review have been remedied.

       On behalf of Northwest Indian College, please call me at 360-676-2772, ext. 4241
or 360-392-4241, to discuss this matter further. Otherwise, we look forward to
correspondence further detailing the financial transactions discussed above.

Sincerely,

fttazy~~
President




                                                                                       10
